NO. 19-1285

In the

Supreme Court of the United
States
________________
ANDREA LEA, in her official capacity
as Auditor of the State of Arkansas,
v.

Petitioner,

UNITED STATES and JAKE LATURNER,
Treasurer of the State of Kansas,
________________

Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit
________________

REPLY BRIEF FOR PETITIONER
________________
JOSEPH H. MELTZER
MELISSA L. TROUTNER
KESSLER TOPAZ MELTZER
& CHECK LLP
280 King of Prussia
Road
Radnor, PA 19087
(610) 667-7706
jmeltzer@ktmc.com

DAVID H. THOMPSON
Counsel of Record
PETER A. PATTERSON
JOHN D. OHLENDORF
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com

Counsel for Petitioner
July 31, 2020

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ........................................ ii
ARGUMENT ................................................................ 1
CONCLUSION .......................................................... 12

ii
TABLE OF AUTHORITIES
Page
CASES
Pittsburgh Terminal Corp. v. Baltimore & Ohio
R.R. Co., 680 F.2d 933 (3d Cir. 1982) .................... 8
Treasurer of New Jersey v. United States Dep’t
of the Treasury, 684 F.3d 382
(3d Cir. 2012) .......................................... 5, 6, 10, 11
Webb’s Fabulous Pharmacies, Inc. v. Beckwith,
449 U.S. 155 (1980) .............................................. 10
REGULATIONS
31 C.F.R.
§ 315.20(b) (2015) ........................................... 3, 7, 8
§ 315.23(a) .............................................................. 8
§ 315.25 ................................................................... 9
OTHER AUTHORITIES
RESTATEMENT (SECOND) OF CONTRACTS
(Am. Law Inst. 1981).............................................. 8

1
ARGUMENT
Starting in 1952 and for over sixty years
thereafter, the Treasury Department gave a clear and
consistent set of instructions to States explaining how
they could obtain and safeguard, through escheatment, abandoned savings bonds that have matured
but have not been redeemed by their owners: if the
State “succeeded to the title and ownership of the
securities pursuant to valid escheat proceedings,”
Pet.App.161a, then Treasury would redeem the
abandoned bond to the State as the bondholder’s
rightful “successor or representative,” Pet.App.157a.
Respondent even set out that “considered interpretation of federal law” in briefing before this Court in
2013. Pet.App.175a-176a. But when Treasury was
faced later that year with redemption requests from a
number of States who had complied with its
instructions, it abruptly reversed course. And we are
now given to understand that Treasury’s six decades
of clear guidance about what steps States should take
to obtain abandoned bonds through escheatment
merely set forth conditions that were “necessary,
though not sufficient” to obtain the bonds, Opp.14—
and that there are other “necessary” conditions that
went entirely unmentioned for over sixty years (even
when they would have been relevant to the States’
requests).
The Court of Federal Claims recognized this
conduct for what it is: “a game of ‘whack-a-mole’ in
which the federal government’s rationale for denying
[redemption] requests changes each time the states
satisfy the most recently articulated condition for
doing so.” Pet.App.45a. And Respondent’s efforts to
defend this gamesmanship—or at the least avoid this
Court’s review—all fail. Its argument that Treasury

2
had no obligation to recognize Arkansas as the owner
of the bonds that have escheated to it, in addition to
flouting decades of Treasury’s own representations, is
flatly contrary to the text of the regulations that
authorized the transfer—for reasons that neither
Respondent nor the Federal Circuit panel below have
rebutted or even addressed. Respondent’s preemption
argument therefore never gets off the ground—after
all, federal law cannot invalidate, through the doctrine
of obstacle preemption, the very thing it expressly
authorizes. And Respondent’s backup argument that
Petitioner nevertheless cannot redeem the bonds
because she does not know their serial numbers also
fails: Under the regulations, Petitioner does not need
to know the serial numbers to begin with; even if serial
numbers were required, Treasury has no warrant for
stonewalling her efforts to identify them; and even if
both those points are set aside, Respondent is still not
off the hook, for the result of its alternative argument
is a taking of Petitioner’s property interest in the
bonds, for which it owes just compensation, if nothing
else.
The end result of the Government’s bait-andswitch tactics is a money-grab of epic proportions: it
has raked in over $3 billion in bond-proceeds from
Petitioner and the other States that advanced
escheatment-based claims in the trial court, and it has
also cleared the way to seize the entire $26 billion of
matured-but-unredeemed bonds nationwide. Respondent cannot credibly help itself to a windfall of this
magnitude and then claim that its machinations “do
not warrant this Court’s review.” Opp.24.
1. The Federal Circuit’s primary holding below—
that the abandoned savings bonds at issue “belong to
the original bond owners, not the States,”

3
Pet.App.3a—is contrary to the plain text of Treasury’s
regulations and over six decades of uniform regulatory
practice, and Respondent fails to show otherwise.
Respondent acknowledges that bonds may be validly
transferred—before or after maturity—as “specifically
provided in [Treasury’s] regulations,” Opp.3, and
those regulations provided (at the time relevant to this
litigation) that Treasury must recognize a transfer in
bond ownership that is “established by valid, judicial
proceedings,” 31 C.F.R. § 315.20(b) (2015). Because
Petitioner obtained title to the abandoned bonds here
through a valid state-court escheatment proceeding,
the Federal Circuit’s (and Respondent’s) conclusion
that Arkansas does not own the bonds is unsupportable.
The panel below advanced a different
interpretation of Section 315.20(b), based on the
portion of the provision that requires Treasury to
recognize a transfer effected by valid judicial
proceedings “only as specifically provided in this
subpart.” Rather than reading this language as
qualifying the manner in which the validity of judicial
proceedings is established, the panel read this proviso
as limiting the types of judicial proceedings capable of
transferring title to those “proceedings specifically
referenced” later in the regulations: “bankruptcy,
divorce, and a gift causa mortis.” Opp.12. Our Petition
catalogued the serious textual difficulties with that
interpretation, Pet.20-21 (as did the Court of Federal
Claims, Pet.App.77a-79a): in short, it renders
significant portions of the regulation superfluous and
is contrary to the provision’s obvious purpose.
Respondent briefly attempts to defend the Federal
Circuit’s interpretation, but it completely fails to
justify or even mention these fatal textual flaws,

4
Opp.12-13 (as did the Federal Circuit, Pet.App.13a14a).
Instead of analyzing the regulatory text
establishing Petitioner’s ownership, Respondent takes
a lengthy detour through preemption jurisprudence.
Treasury’s regulations “allow bond owners to redeem
their U.S. savings bonds at any time after maturity,”
Respondent says, and Arkansas’s escheatment law
instead “deem[s] those bonds abandoned or unclaimed
merely because their owners have not redeemed the
bonds within a certain period after maturity.” Opp.10.
It concludes that Arkansas escheatment law thus
“produces a result inconsistent with the objective of
the federal [regulations]” and is preempted. Opp.11
(brackets omitted).
Respondent’s preemption excursion is a wildgoose chase. Because Treasury’s regulations allow
savings bonds to be transferred from one owner to
another, Arkansas’s escheatment statute does nothing
to abridge a bondholder’s right “to redeem their U.S.
savings bonds at any time after maturity,” Opp.10, it
merely transfers that right to a new bondholder, as
specifically authorized by federal law itself. Respondent never explains how federal law can even
conceivably preempt the very thing it expressly
authorizes. Treasury retorts that “Section 315.20(b)
applies only to ‘valid’ judicial proceedings,” and here
the escheat proceedings are not “valid” because they
“rested on state laws that are preempted.” Opp.13.
The circularity of that contention is too obvious to
require response.
Indeed, a valid escheatment judgment is no
different on this score than the types of transfers that
Respondent admits are authorized. Opp.12. A divorce

5
decree or bankruptcy judgment transferring ownership in savings bonds cuts off the transferor’s right “to
redeem their U.S. savings bonds at any time after
maturity” too, Opp.10—by conveying that right to the
transferee instead. If Respondent’s preemption theory
were right, it would necessarily entail that every
bankruptcy judgment or divorce decree that transfers
title to savings bonds is preempted—despite the
regulatory text expressly authorizing the transfers.
Respondent’s argument that Section 315.20(b)
does not extend to escheatment proceedings, though
unpersuasive, is at least logically consistent; but its
contention that Petitioner’s valid escheatment judgment is preempted even if it is authorized by federal
law simply makes no sense.
2. Respondent’s refusal to recognize Petitioner’s
ownership is also contrary to over six decades of
Treasury’s own solemn commitments. As detailed in
our Petition, for decades the Government consistently
took the position that while it could not recognize
escheatment-based claims of States that merely
obtained custody over abandoned bonds, where the
State obtained ownership through title escheatment—
as Arkansas did here—the judgment of escheatment
constituted a valid judicial proceeding that Treasury
was bound to honor. Pet.14-20. These representations
go all the way back to 1952, App.157a, and they
include its successful effort, in briefing before the
Third Circuit and this Court in the Treasurer of New
Jersey v. United States Department of the Treasury
litigation, to prevent several States from claiming
custody escheatment over abandoned bonds. 684 F.3d
382 (3d Cir. 2012). As the Solicitor General explained
on Treasury’s behalf in that case, Treasury’s
“considered interpretation of federal law” entitled

6
States “to receive payment on a U.S. savings bond”
under Section 315.20(b)’s provision governing “valid
judicial proceedings” if it “complete[s] an escheat
proceeding that satisfies due process and that awards
title to the bond to the State.” Pet.App.175a-176a.
Respondent now attempts to wave those sixdecades-worth of assurances away. It insists that it
“never determined” that States could obtain
ownership through escheatment laws that apply
“merely because an owner has not redeemed the bond
within a certain period of time,” and it further claims
that its previous statements did not speak to
escheatment where “the State did not possess [the
bonds it] claimed to own.” Opp.13. These claims are
false—indeed, the attempted escheatment at issue in
the Treasurer of New Jersey case shared both of those
features: those state statutes “deemed” savings bonds
escheated “after time periods that differ from State to
State,” and they covered bonds that the States did not
possess. 684 F.3d at 389-90, 392. Yet even in that
context, Treasury explained that as it had “long
advised state governments,” “to receive payment on a
U.S. savings bond, a State must go through an escheat
process that satisfies due process and awards title to
the bond to the State.” Pet.App.172a. In its briefing
before the Third Circuit and this Court, Treasury did
not so much as whisper that even if a State went
through this “escheat process” it still could not obtain
title to abandoned savings bonds if it did not “possess”
them (or if its escheatment statute was based on the
absence of redemption “within a certain period of
time”). Opp.13.
We are now told that Respondent’s representations to this Court may safely be ignored because it
“did not state” that it “would recognize every title

7
escheat judgment,” but rather identified title
escheatment as a condition that was “necessary,
though not sufficient.” Opp.14. But again, in 2013
Respondent told the Court this:
The Department has provided guidance to the
States about how [escheat] laws may apply to
U.S. savings bonds in light of the strict
limitations on redemptions and transfer
established by the federal scheme.… [T]he
regulations generally provide that payment
on a U.S. savings bond will be made only to
the registered owner, thus precluding payment to a State invoking its unclaimedproperty statute. The regulations include an
exception, however, for cases in which a third
party obtains ownership of the bond through
valid judicial proceedings. 31 C.F.R.
315.20(b).… Accordingly, the Department has
long advised the States that to receive
payment on a U.S. savings bond a State must
complete an escheat proceeding that satisfies
due process and that awards title to the bond
to the State, substituting the State for the
original bondholder as the lawful owner.
App.175a-76a. Respondent did not characterize this
“guidance” on how “to receive payment on an U.S.
savings bond” as merely identifying one “necessary”
condition, nor did it mention the other conditions it
now claims are also “necessary”—even though those
conditions would have been dispositive in Treasurer of
New Jersey. If Respondent is allowed to back out from
under its explicit statements to this Court in 2013
through this kind of “necessary-versus-sufficient”
logic game, one wonders what other now-inconvenient
representations are up for grabs.

8
3. Respondent also fails to rehabilitate the
Federal Circuit’s alternative holding that Arkansas
cannot redeem the bonds, even if it owns them,
because it “do[es] not have the physical bonds or the
bonds’ serial numbers.” Opp.17. As explained in our
Petition, these considerations cannot bar Arkansas
from redeeming its bonds, because when a new owner
obtains title to savings bonds pursuant to a “valid[ ]
judicial proceeding,” 31 C.F.R. § 315.20(b) (2015), all
it need do to “establish the validity of [the] judicial
proceeding[ ]” and obtain payment on the transferred
bonds is submit “certified copies of the final judgment,
decree, or court order,” id. § 315.23(a). Respondent
asserts, without explanation or argument, that there
is “no basis” for this reading of Section 315.23, but it
does not address the textual support for this
interpretation laid out in the Petition (at Pet.24-25).
In any event, even if Arkansas were subject to “the
general requirements for redeeming a bond,” the fact
that Petitioner does not possess the physical bond
certificates, or know their serial numbers, does not bar
her request to redeem them. Petitioner provided
Treasury sufficient information for it to determine the
missing serial numbers from its own books and
records, and it can hardly refuse to turn over this
“information which [Arkansas] needs in order to
receive the fruits of [its contract],” consistently with
the implied duty of good faith and fair dealing.
Pittsburgh Terminal Corp. v. Baltimore & Ohio R.R.
Co., 680 F.2d 933, 941 (3d Cir. 1982); see also
RESTATEMENT (SECOND) OF CONTRACTS § 205 (Am.
Law Inst. 1981). Respondent protests that its recordkeeping system is such a shambles that it would cost
on the order of “$100 million” for it to identify the
serial numbers in question, Opp.19, but Petitioner and

9
the other States in question have repeatedly offered to
cover the necessary costs.
That also suffices to dispose of the contention that
implying a duty requiring the Government to
cooperate with bondholders, in good faith, in
identifying the information needed to redeem their
bonds would be “inconsistent” with the regulatory
requirement that bondholders seeking to redeem lost
bonds must supply their serial numbers. Opp.19-20.
Respondent itself insists that this requirement is
designed to protect Treasury “against the extraordinary cost and burden of locating bonds without the
bond serial number,” Opp.19, so it simply serves no
purpose where the bondholder is itself willing to
shoulder that cost and burden.
Finally, Respondent argues that Petitioner also
failed to satisfy the regulatory requirement that lost
bonds may be redeemed only upon “satisfactory
evidence of the loss.” 31 C.F.R. § 315.25; Opp.21. Not
so. Arkansas has submitted “satisfactory evidence” of
the loss: a valid escheatment judgment explaining
that the bonds are owned by the State but that it does
not possess them and cannot locate them without
Treasury’s assistance. This situation easily fits within
the ordinary meaning of the term “lost.” See
Pet.App.47a.
4. If Respondent’s various stratagems to avoid
redeeming Arkansas’s savings bonds were to succeed,
it would result in a massive, unconstitutional taking.
After all, the alternative “redemption” holding
adopted below proceeds on the assumption that
Arkansas validly owns the abandoned bonds in
question (that is what makes it an “independent
ground,” Opp.18, for the panel’s disposition). But if

10
Arkansas cannot redeem the bonds it owns because
Treasury refuses to cooperate in identifying them,
then no one can redeem them, and the result is that
their proceeds end up in Respondent’s pocket. The
Fifth Amendment’s Takings Clause bars the
Government from “transform[ing] private property
into public property” through “ipse dixit” in this
manner. Webb’s Fabulous Pharmacies, Inc. v.
Beckwith, 449 U.S. 155, 164 (1980). Respondent
regurgitates the panel’s argument below that no
taking has occurred because Arkansas is in the same
position as the original bondholders, who also “would
be required to supply the serial numbers of any bonds
they had lost.” Opp.22. But Arkansas is not in the
same position: by definition, unlike the original bondholder, a State that owns abandoned bonds through a
judgment of escheatment was never in a position to
know their serial numbers.
5. This Court’s review of the important legal
questions discussed above is independently justified
because the Federal Circuit’s disposition of them is
directly contrary to the Third Circuit’s decision in
Treasurer of New Jersey, 684 F.3d 382. While that
decision rejected an attempt to obtain custody
escheatment over abandoned bonds, it expressly
explained that its analysis would not apply to title
escheatment, since
as provided in the federal regulations and as
recognized by the Treasury, third parties,
including the States, may obtain ownership of
the bonds—and consequently the right to
redemption—through
‘valid[ ]
judicial
proceedings,’ 31 C.F.R. § 315.20(b), so long as
they submit certified copies of the judgment
or order affecting ownership and other

11
evidence that may be necessary to support
the validity of the judgment or order.
Id. at 412-13. To be sure, the Third Circuit “did not
hold that a title-based escheat law would actually be
treated differently for preemption purposes,” Opp.16
(emphasis added), but there can be no question that
Treasurer of New Jersey adopted an interpretation of
Section 315.20(b)—at Treasury’s prompting—that is
irreconcilable with the interpretation adopted below.
6. Finally, this Court’s review is called for by the
extraordinary nature of the Government’s conduct in
this case—and by the magnitude of its financial
implications. For over sixty years, Treasury fended off
States’ attempts to redeem escheated bonds by
explaining that custody escheatment was insufficient,
but that the Government would honor the claim of a
State “who succeeds to the title of the bondholder.”
Pet.App.157a (emphasis in original). But when this
position became inconvenient in 2013, Treasury
abruptly changed course and repudiated all of its prior
representations. Indeed, even Respondent’s representations to this Court have gone by the boards. This kind
of bait-and-switch gamesmanship would be bad
enough from any contracting party, but it is especially
ill-befitting the United States Government.
The stakes are significant. The outcome of this
case will not be limited to the estimated $242 millionworth of bonds owned by Arkansas. The decision below
also invalidates, at one stroke, the savings-bondspecific escheatment statutes adopted by no fewer
than twenty-three additional States, see Brief of 24
States as Amici Curiae at 12-17 (June 11, 2020)—
including ten States that have claims pending in the
trial court worth roughly $3.2 billion. Moreover, the

12
outcome in this case also carries implications for the
entirety of Nation’s matured but unredeemed savingsbond debt—worth $26 billion and counting. Even if
the regulatory fix the Government hurried through on
Christmas Eve 2015 “deprive[s] the questions presented here of prospective significance,” given the
amounts at issue and the Government’s shifting
positions, there is no question that the matter
“warrant[s] this Court’s review.” Opp.23-24.
CONCLUSION
The Court should grant the writ.
July 31, 2020

Respectfully submitted,

JOSEPH H. MELTZER
MELISSA L. TROUTNER
KESSLER TOPAZ
MELTZER & CHECK LLP
280 King of Prussia
Road
Radnor, PA 19087
(610) 667-7706
jmeltzer@ktmc.com

DAVID H. THOMPSON
Counsel of Record
PETER A. PATTERSON
JOHN D. OHLENDORF
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com

Counsel for Petitioner

